             Offices of
         Inspector General


           Department of the Treasury
      Federal Deposit Insurance Corporation
Board of Governors of the Federal Reserve System



      Status of the Transfer of
Office of Thrift Supervision Functions


                    OIG-12-046
                   EVAL-12-004
                 FRB OIG 2012-01


                  March 21, 2012
Contents


Audit Report

  Background ................................................................................................ 3

  Results of the Joint Review .......................................................................... 4

      OTS Employees Transferred to FDIC and OCC as Outlined in the Plan ........... 4

      Procedures and Safeguards Are in Place as Outlined in the Plan to Ensure
      That Transferred OTS Employees Are Not Unfairly Disadvantaged ................ 5

      OTS Authorities and Responsibilities Transferred to FDIC, FRB, and OCC as
      Outlined in the Plan ................................................................................ 7

      All OTS Funds Transferred to OCC as Outlined in the Plan ........................... 8

      OTS Property Transferred to FDIC, FRB, and OCC as Outlined in the Plan ...... 8

      Other Matters Identified in Prior Reports .................................................... 9

  Management Response and OIG Comment ..................................................... 10

Appendices

  Appendix     1:     Objective, Scope, and Methodology ........................................             12
  Appendix     2:     FRB Management Comments .................................................              15
  Appendix     3:     OCC Management Comments ................................................               16
  Appendix     4:     Major Contributors to This Report ...........................................          17
  Appendix     5:     Report Distribution ................................................................   18

Abbreviations

  Dodd-Frank Act           Dodd-Frank Wall Street Reform and Consumer Protection Act
  FDIC                     Federal Deposit Insurance Corporation
  FRB                      Board of Governors of the Federal Reserve System
  OCC                      Office of the Comptroller of the Currency
  OIG                      Office of Inspector General
  OTS                      Office of Thrift Supervision
  Plan                     Joint Implementation Plan
  Treasury                 Department of the Treasury


                      Status of the Transfer of Office of Thrift Supervision Functions                   Page i
         This Page Intentionally Left Blank.




Status of the Transfer of Office of Thrift Supervision Functions   Page ii
                     Offices of Inspector General



                       March 21, 2012

                       Ben S. Bernanke, Chairman
                       Board of Governors of the Federal Reserve System

                       Martin J. Gruenberg, Acting Chairman
                       Federal Deposit Insurance Corporation

                       John G. Walsh, Acting Comptroller of the Currency
                       Office of the Comptroller of the Currency

                       This report presents the results of our offices’ third joint review of
                       the transfer, pursuant to Title III of the Dodd-Frank Wall Street
                       Reform and Consumer Protection Act (Dodd-Frank Act), of the
                       functions, employees, funds, and property of the Office of Thrift
                       Supervision (OTS) to the Board of Governors of the Federal Reserve
                       System (FRB), the Federal Deposit Insurance Corporation (FDIC),
                       and the Office of the Comptroller of the Currency (OCC). In
                       accordance with Title III, the transfer occurred in July 2011.

                       Our joint reviews are mandated by Section 327 of Title III. Our first
                       joint review 1 determined whether the Joint Implementation
                       Plan (Plan) for the transfer prepared by FRB, FDIC, OCC, and OTS
                       conformed to relevant Title III provisions. Based on that review, we
                       concluded that the Plan generally conformed to the relevant
                       provisions of Title III. We noted, however, that the Plan did not
                       address the prohibition in Title III against the involuntary separation
                       or the involuntary reassignment of a transferred OTS employee

1
 Department of the Treasury (Treasury) Office of Inspector General (OIG), FRB OIG, and FDIC OIG,
Review of the Joint Implementation Plan for the Transfer of Office of Thrift Supervision Functions,
OIG-11-064/FRB OIG 2011-02/EVAL-11-002 (Mar. 28, 2011).


                       Status of the Transfer of Office of Thrift Supervision Functions           Page 1
                      outside the employee’s locality pay area for 30 months (except
                      under certain circumstances). In response to that recommendation,
                      the agencies amended the Plan in April 2011.

                      After the initial joint review of the Plan, Section 327 requires that
                      every 6 months we jointly provide a written report on the status of
                      the implementation of the Plan to FRB, FDIC, and OCC, with a
                      copy to the Congress. We issued the first report 2 under this
                      requirement on September 28, 2011. In that report, we concluded
                      that FRB, FDIC, OCC, and OTS had substantially implemented the
                      actions in the Plan that were necessary to transfer OTS functions,
                      employees, funds, and property to FRB, FDIC, and OCC, as
                      appropriate. However, we also reported that certain aspects of the
                      Plan were on-going or were not yet required to be completed as
                      provided in Title III.

                      The objective of our current review was to determine and report on
                      the status of the implementation of the Plan. To accomplish our
                      objective, we reviewed the actions FRB, FDIC, OCC, and OTS have
                      taken to implement the Plan since our September 2011 report. Our
                      work focused on FRB, FDIC, OCC, and OTS planned actions
                      outlined in the Plan that were to occur between the dates of our
                      prior report (September 28, 2011) and the end of our fieldwork
                      (March 5, 2012). We also performed tests to determine compliance
                      with Title III provisions related to transferred OTS employees. As
                      part of our work, we interviewed officials from FRB, FDIC, and
                      OCC, and reviewed relevant documentation. We conducted our
                      fieldwork from October 2011 to March 2012. Appendix 1 contains
                      a detailed description of our objective, scope, and methodology.

                      In brief, we concluded that FRB, FDIC, OCC, and OTS implemented
                      the actions in the Plan that were necessary to transfer OTS
                      functions, employees, and funds to FRB, FDIC, and OCC. We also
                      concluded that all OTS property was transferred to FRB, FDIC, and
                      OCC; and procedures and safeguards are in place as outlined in the
                      Plan to ensure transferred employees are not unfairly
                      disadvantaged. However, there are certain other items related to
                      the Plan, as discussed below, that are ongoing or are not yet
                      required to be completed as provided in Title III. In accordance with

2
 Treasury OIG, FRB OIG, and FDIC OIG, Status of the Transfer of Office of Thrift Supervision
Functions, OIG-11-109/FRB OIG 2011-04/EVAL-11-005 (Sept. 28, 2011).


                      Status of the Transfer of Office of Thrift Supervision Functions         Page 2
                       Section 327, we will continue to monitor the implementation of the
                       Plan until all aspects have been implemented.


Background
                       Title III of the Dodd-Frank Act sets forth provisions to address
                       problems and concerns in the multiple agency financial regulatory
                       system by abolishing OTS and transferring its powers and
                       authorities to FRB, FDIC, and OCC on July 21, 2011 (which for
                       purposes of the title is deemed the “transfer date”). All OTS
                       functions relating to federal savings associations, all OTS
                       rulemaking authority for federal and state savings associations, 3
                       and the majority of OTS employees transferred to OCC; OTS’s
                       supervisory responsibility for state-chartered savings associations
                       and OTS employees to support these responsibilities transferred to
                       FDIC; 4 and OTS’s authority for consolidated supervision of savings
                       and loan holding companies and their non-depository subsidiaries
                       transferred to FRB. No OTS employees were required to be
                       transferred to FRB.

                       Section 327(a) of Title III required FRB, FDIC, OCC, and OTS to
                       jointly submit a plan within 180 days of enactment of the
                       Dodd-Frank Act to the Congress and the Inspectors General of
                       FRB, FDIC, and Treasury detailing the steps necessary to
                       implement the provisions of Sections 301 through 326 of Title III.
                       The Inspectors General and the Congress received the Plan fulfilling
                       this requirement on January 25, 2011.

                       Section 327(b) of Title III required that within 60 days of receiving
                       the Plan, the Inspectors General of FRB, FDIC, and Treasury jointly
                       provide a written report to FRB, FDIC, OCC, and OTS, with copies
                       to the Congress, that detailed whether the Plan conformed to the
                       provisions of Sections 301 through 326 and included any
                       additional recommendations for an orderly and effective process.
                       The Inspectors General jointly issued that report, Review of the
                       Joint Implementation Plan for the Transfer of Office of Thrift

3
  In some instances, FDIC, as the appropriate federal banking agency for state savings associations, is
authorized by statute to issue regulations pertaining to state savings associations.
4
  FDIC accepted the transfer of other OTS employees to fill actual and, to a limited extent, other
anticipated vacancies.


                       Status of the Transfer of Office of Thrift Supervision Functions            Page 3
                      Supervision Functions, on March 28, 2011, fulfilling this
                      requirement.

                      Section 327(c) of Title III requires that, within 6 months of the
                      Congress receiving the report, the Inspectors General of FRB, FDIC,
                      and Treasury must jointly provide a written report on the status of
                      the implementation of the Plan to FRB, FDIC, and OCC, with a
                      copy to the Congress. Further, the Inspectors General of FRB,
                      FDIC, and Treasury must jointly provide such a written report every
                      6 months thereafter until all aspects of the Plan have been
                      implemented. The Inspectors General jointly issued the first in a
                      series of planned reports, Status of the Transfer of Office of Thrift
                      Supervision Functions, on September 28, 2011, in accordance with
                      this requirement.


Results of the Joint Review
                      We concluded that FRB, FDIC, OCC, and OTS implemented the
                      actions in the Plan necessary to transfer OTS functions,
                      employees, and funds to FRB, FDIC, and OCC, as appropriate. We
                      also concluded that all OTS property was transferred to FRB, FDIC,
                      and OCC; and procedures and safeguards are in place as outlined in
                      the Plan to ensure transferred employees are not unfairly
                      disadvantaged. However, there are certain other items related to
                      the Plan, as discussed below, that are on-going or are not yet
                      required to be completed as provided in Title III.

                      OTS Employees Transferred to FDIC and OCC as Outlined in the
                      Plan

                      All OTS employees were transferred to OCC and FDIC, as outlined
                      in the Plan. Ninety-five (95) OTS employees transferred to FDIC
                      and 668 OTS employees transferred to OCC. 5

                      Title III, Section 322, required that each transferred OTS employee
                      was to receive a notice of position assignment no later than
                      120 days (November 18, 2011, except for the OTS Acting

5
  At the time of our September 2011 report, OCC reported that 670 OTS employees were transferred to
OCC; however, according to an OCC official, two individuals scheduled to transfer decided not to
transfer to OCC.


                      Status of the Transfer of Office of Thrift Supervision Functions       Page 4
                        Director) after the effective date of their transfer. As noted in our
                        September 2011 report, OCC sent a notice of position assignment
                        to each OTS employee on May 6, 2011, with the exception of the
                        OTS Acting Director. In accordance with the Plan, the Acting
                        Director remained at OTS for 90 days after the transfer date (until
                        October 19, 2011) to wrap up its affairs. Once completed, the
                        Acting Director was transferred to OCC. The former OTS Acting
                        Director received a notice of position assignment on February 15,
                        2012, within the required timeframe.

                        Title III, Section 322, provides that transferred employees be
                        placed in positions at OCC and FDIC responsible for the same
                        functions and duties, to the extent practicable. 6 We sampled 119
                        of the 668 former OTS employees who transferred to OCC. We
                        reviewed each employee’s Standard Form 50, Notification of
                        Personnel Action. We reviewed each employee’s position and the
                        related position description, and determined that the employees
                        were placed in positions responsible for the same functions and
                        duties, to the extent practicable. We did find some instances in
                        which former OTS supervisory employees were placed in non-
                        supervisory positions. However, based on our review, we
                        concluded that there was not a practical way for OCC to assign
                        them to supervisory positions. In addition, their pay and benefits
                        were not impacted. We also reviewed the former OTS Acting
                        Director’s notice of position assignment, and determined the
                        position assignment with OCC’s legal department was also in
                        accordance with the provisions of Section 322.

                        Procedures and Safeguards Are in Place as Outlined in the Plan to
                        Ensure That Transferred OTS Employees Are Not Unfairly
                        Disadvantaged

                        Based on review of documentation; interviews with FDIC, OCC,
                        OTS officials, and former OTS employees; and a survey of former
                        OTS employees who transferred to FDIC, we concluded that FDIC
                        and OCC have procedures and safeguards in place as outlined in

6
  The applicable language from Title III, Section 322(e)(2), states that, to the extent practicable, each
transferred employee shall be placed in a position at OCC or FDIC, as applicable, responsible for the
same functions and duties as the transferred employee had on the day before the date on which the
employee was transferred, in accordance with the expertise and preferences of the transferred
employee.


                        Status of the Transfer of Office of Thrift Supervision Functions             Page 5
                      the Plan to ensure that transferred OTS employees are not unfairly
                      disadvantaged.

                      From our sample of 119 former OTS employees who transferred to
                      OCC, we determined that each transferred OTS employee retained
                      their same pay, status, tenure, retirement, benefits other than
                      retirement, and service computation date in accordance with
                      Title III of the Dodd-Frank Act. In other words, no exceptions were
                      noted for the sampled employees.

                      We also conducted a survey of the 94 former OTS employees who
                      transferred to FDIC. 7 The survey asked (1) how well FDIC handled
                      the employees’ transfers from OTS to FDIC relating to, among
                      other things, the protection of the employees’ pay, status, tenure,
                      functions, and duties; (2) what FDIC could have done better; and
                      (3) what FDIC did best. We received 80 responses, which was an
                      85 percent response rate. The overall results were positive, with
                      67, or 84 percent, of the respondents rating that FDIC handled
                      their transfer well or outstanding. None of the responses included
                      issues warranting concern or follow up in the context of this audit.

                      In our prior reports, we identified that OTS officials and OTS
                      former employees had expressed concerns related to OCC plans for
                      requiring additional certification for certain transferred OTS
                      examiners 8 before they would be allowed to supervise national
                      bank examinations. 9 We reported that OCC had contracted with a
                      consultant who identified differences between the OTS examiner
                      accreditation process and the OCC Uniform Commission
                      Examination process. OCC also contracted with a consultant for a
                      project to validate the Uniform Commission Examination; the
                      consultant’s report is due March 31, 2012.

                      As an update, OCC contracted with a consultant in October 2011
                      to assist in determining an alternative qualification process for
                      certain OTS examiners to acquire the National Bank Examiner

7
  Ninety-five (95) former OTS employees transferred to FDIC; however, 1 employee voluntarily resigned
in October 2011.
8
  OTS examiners who had earned a National Bank Examiner commission during previous employment
with the OCC are not subject to this requirement.
9
  On the other hand, FDIC was not requiring additional certification for transferred OTS examiners
before they were able to supervise FDIC-regulated bank examinations.


                      Status of the Transfer of Office of Thrift Supervision Functions         Page 6
commission without taking the full OCC Uniform Commission
Examination; one that would take the examiner’s experience into
consideration. This alternative process will also include the
certification of existing National Bank Examiners as qualified to lead
examinations of federal savings associations. The consultant’s
report is due June 30, 2012. OCC has not yet estimated a
completion date for revising the Uniform Commission Examination
testing process for the examiners.

As another pending item, Section 322 of Title III requires that a
study of safeguards and procedures be performed by OCC and
FDIC to ensure transferred OTS employees are not unfairly
disadvantaged. The study is due 365 days after the transfer date
(July 20, 2012). According to OCC, in preparation for this
reporting requirement, it has been documenting decisions made and
the rationale for those decisions and reviewing pay and personnel
records of transferred employees to ensure they are accurate. OCC
plans to convene a team in March 2012 to start drafting the report.

OTS Authorities and Responsibilities Transferred to FDIC, FRB, and
OCC as Outlined in the Plan

As noted in our September 2011 report, OTS authorities and
responsibilities were transferred to FDIC, FRB, and OCC, as
outlined in the Plan. On July 21, 2011, all OTS functions relating
to federal savings associations and all OTS rulemaking authority for
federal and state savings associations transferred to OCC; OTS’s
supervisory responsibility for state-chartered savings associations
transferred to FDIC; and OTS’s authority for consolidated
supervision of savings and loan holding companies and their non-
depository subsidiaries transferred to FRB.

As an update, we found that OCC and OTS jointly developed fiscal
year 2012 examination plans and supervisory strategies, and jointly
conducted a small number of pilot examinations, as outlined in the
Plan. We sampled 45 of the 637 thrifts that transferred to OCC to
determine whether there was continuous supervisory coverage of
transferred thrifts. We reviewed each sampled thrift’s examination
schedule and determined that, as of February 7, 2012, the next full
scope examination had been appropriately scheduled or started in
accordance with the thrift’s supervisory cycle.



Status of the Transfer of Office of Thrift Supervision Functions   Page 7
                      FRB has developed examination plans to supervise savings and loan
                      holding companies. On December 29, 2011, FRB published a
                      notice of the final approval for regulatory reporting from savings
                      and loan holding companies in the Federal Register. FRB continues
                      to require all savings and loan holding companies to submit existing
                      OTS regulatory reports, and will phase-in the new regulatory
                      reporting requirements over a 2 year period.

                      All OTS Funds Transferred to OCC as Outlined in the Plan

                      As noted in our September 2011 report, OTS funds totaling $282
                      million transferred to OCC on July 21, 2011. An additional $2.3
                      million related to the sale of OTS-held Treasury securities that
                      occurred just prior to the transfer date was transferred to OCC 18
                      days after the transfer date (August 8, 2011). Although the Plan
                      requires that all OTS funds be transferred by the transfer date
                      (July 21, 2011), we did not consider this a significant delay. As
                      reported previously, FDIC and FRB determined that no OTS funds
                      would be transferred to them.

                      As an update, $2.25 million of the transferred OTS funds was set
                      aside as a separate fund in OCC’s accounting system to wind-up
                      the affairs of OTS. Approximately $750 thousand was used for
                      OTS employee relocation 10 and compensation for those
                      employees 11 who worked on winding up the affairs of OTS.
                      According to an OCC official, OCC plans to determine whether the
                      separate fund should be closed out and the remaining balance of
                      approximately $1.5 million moved to OCC’s general operating fund
                      as part of its mid-year budget review in March or April 2012.

                      OTS Property Transferred to FDIC, FRB, and OCC as Outlined in
                      the Plan

                      As required by Title III, all OTS property was transferred to OCC
                      within 90 days after the transfer date (October 19, 2011). OCC is

10
   OTS committed to fund relocation expenses for transferring OTS staff to FDIC. FDIC paid to relocate
10 transferring OTS employees. OCC, as agreed in a memorandum of understanding between FDIC and
OCC, is to reimburse FDIC for the relocation expenses. The amount obligated for this purpose was
$600 thousand.
11
   The compensation paid from the separate fund was for 100 percent of the salary of the Acting
Director and part of the salaries for a legal assistant and two financial management staff.


                      Status of the Transfer of Office of Thrift Supervision Functions          Page 8
nearing completion of entering all OTS accountable property into its
inventory system as required by the Plan. We will continue to
monitor the inventory until it all has been included in OCC’s
inventory system.

No OTS assets, information technology systems, equipment, or
other infra-structure were transferred to FDIC or FRB. As noted in
our September 2011 report, OTS provided FDIC and FRB with
computers to facilitate direct access to OTS systems. Under a
memorandum of understanding, OCC agreed to provide FDIC and
FRB any records it requires for up to 90 days after the transfer
date, as well as the use of any OTS-provided computers and
access to OTS electronic systems until December 21, 2011. Since
then, OCC, FRB, and FDIC have decided to extend the use of OTS-
provided computers and access to OTS electronic systems until
July 21, 2012. FDIC completed its transition of OTS workpapers
into its system in late December 2011. In addition, a substantial
number of OTS records at FRB have been made accessible to
appropriate FRB and Reserve Bank staff, and a process to
incorporate the remaining OTS documents into FRB systems is
expected to be completed in July 2012.

Other Matters Identified in Prior Reports

•   Underfunded Pension Plan As noted in our September 2011
    report, most OTS employees participated in either the Civil
    Service Retirement System or the Federal Employees Retirement
    System, administered by the Office of Personnel Management.
    However, approximately 460 OTS retirees and 375 former OTS
    employees also participated in a separate retirement system, the
    Financial Institutions Retirement Fund (FIRF), which was funded
    by OTS. Under the Plan, OCC was to sponsor the underfunded
    FIRF after the transfer date. As of October 2011, the plan
    administrator for FIRF determined that the shortfall amount was
    $86.2 million. OCC funded the shortfall the same month.

•   Supervisory Assessments As noted in our September 2011
    report, for savings and loan holding companies and bank holding
    companies with assets of $50 billion or more, and nonbank
    financial companies that FRB will be required to supervise
    pursuant to the Dodd-Frank Act, FRB is to collect a total


Status of the Transfer of Office of Thrift Supervision Functions   Page 9
               amount of assessments, fees, or other charges that are equal to
               the expenses FRB estimates are necessary or appropriate to
               carry out its supervisory and regulatory responsibilities. To
               satisfy this requirement, a notice of proposed rulemaking for the
               assessments is currently under review and is expected to be
               available for public comment in the second quarter of 2012.
               The assessment collection is anticipated to begin later this year,
               retroactive to the transfer date.

           •   OTS Financial Reporting for Fiscal Year 2011 Our prior reports
               noted that OTS, OCC, and their respective auditors were, at
               that time, determining the financial reporting requirements,
               presentation, and audit scope related to OTS’s fiscal year 2011
               financial statements. As an update, OTS prepared final financial
               statements covering the period October 1, 2010, to July 20,
               2011. The auditor of the statements rendered an unqualified or
               clean opinion.

Management Response and OIG Comment
           We provided a draft of this report to FRB, FDIC, and OCC. We
           received written responses from FRB and OCC and informal
           comments from FDIC.

           FRB stated in its written response that it agrees with the
           conclusion that the Federal Reserve has substantially implemented
           the actions in the Plan that were necessary to transfer the OTS
           supervision functions, employees, funds, and property to the
           Federal Reserve, FDIC, and OCC, as appropriate. FDIC agreed with
           the conclusions contained in the report that FDIC has implemented
           the actions required to date in the Plan. OCC stated in its written
           response that it agrees with the conclusions in our report.

           FRB’s and OCC’s written responses are included in this report as
           appendices 2 and 3, respectively.

                                             *******

           We appreciate the courtesies and cooperation provided to our
           staffs during the audit. If you wish to discuss the report, you may
           contact Marla A. Freedman, Assistant Inspector General for Audit,


           Status of the Transfer of Office of Thrift Supervision Functions   Page 10
                    Treasury OIG, at (202) 927-5400; E. Marshall Gentry, Assistant
                    Inspector General for Evaluations, FDIC OIG, at (703) 562-6378; or
                    Anthony J. Castaldo, Associate Inspector General for Inspections
                    and Evaluations, FRB OIG, at (202) 973-5024. Major contributors
                    to this report are listed in appendix 4.


/s/                             /s/                                       /s/

Eric M. Thorson                 Jon T. Rymer                             Mark Bialek
Inspector General               Inspector General                        Inspector General
Department of the               Federal Deposit Insurance                Board of Governors of the
Treasury                        Corporation                              Federal Reserve System




                    Status of the Transfer of Office of Thrift Supervision Functions          Page 11
Appendix 1
Objective, Scope, and Methodology




As required by Title III, Transfer of Powers to the Comptroller of
the Currency, the Corporation, and the Board of Governors, of the
Dodd-Frank Wall Street Reform and Consumer Protection Act
(Dodd-Frank Act), the Board of Governors of the Federal Reserve
System (FRB), the Federal Deposit Insurance Corporation (FDIC),
the Office of the Comptroller of the Currency (OCC), and the Office
of Thrift Supervision (OTS) prepared a Joint Implementation Plan
(Plan) to accomplish the transfer of functions, employees, property,
and funds of OTS as well as implement other provisions of Title III.
We conducted this joint review to fulfill our requirement under
Section 327(c) of Title III. This section requires the Inspectors
General of FRB, FDIC, and the Department of the
Treasury (Treasury) to provide a written report on the status of the
implementation of the Plan every 6 months until all aspects of the
Plan are implemented.

To accomplish this requirement, we performed the following work:

•   We reviewed the actions FRB, FDIC, OCC, and OTS have taken
    to implement the Plan.
•   With respect to FDIC, we interviewed officials involved in
    implementing the Plan, including the Deputy Director, Corporate
    Planning and Performance Management, Division of Finance; the
    Deputy Director for Human Resources, Division of
    Administration; the Deputy General Counsel, Supervision; and
    additional FDIC staff from the Division of Administration, the
    Division of Risk Management Supervision, and the Legal
    Division.
•   We obtained FDIC documentation of the Thrift Reporting
    Staffing and Logistics working group activities from
    August 2011 to January 2012, and its Risk Subgroup activities
    from August 2011 to November 2012.
•   We conducted a survey of the 94 former OTS employees who
    transferred to FDIC. The survey asked (1) how well FDIC
    handled the employees’ transfers from OTS to the FDIC;
    (2) what FDIC could have done better; and (3) what FDIC did
    best. We tabulated the results of the 80 responses received and
    shared those results with FDIC management and the 94 former
    OTS employees.
•   With respect to FRB, we interviewed a Senior Associate
    Director, Division of Banking Supervision and Regulation; the


Status of the Transfer of Office of Thrift Supervision Functions   Page 12
Appendix 1
Objective, Scope, and Methodology




    Chief Financial Officer, Management Division; and mid-level and
    senior officials from the Division of Banking Supervision and
    Regulation, the Management Division, the Office of the
    Secretary, and the Legal Division.
•   We reviewed relevant FRB documentation, such as the
    interagency memorandum of understanding for transferring and
    sharing of OTS records, including recent amendments, and
    documents pertaining to supervisory assessments.
•   With respect to OCC, we interviewed the Chief Financial
    Officer, the Deputy Chief Financial Officer, the Deputy
    Comptroller for Human Resources, the Director of Management
    Services, the Senior Advisor for Examiner Workforce Planning,
    and the former OTS Acting Director.
•   We applied statistical sampling to select a sample of 119 of the
    668 former OTS employees who transferred to OCC. We
    reviewed each employee’s Standard Form 50, Notification of
    Personnel Action, and earnings and leave statements to
    determine whether each transferred OTS employee retained
    their same pay, status, tenure, retirement, benefits other than
    retirement, and service computation date in accordance with
    Title III. To determine our sample size, we used a 90 percent
    confidence level with 3 percent sample precision and an
    expected error rate of 5 percent.
•   As a test of OCC controls to ensure there was continuous
    supervisory coverage for the 637 thrifts transferred to OCC, we
    selected a sample of 45 thrifts. We reviewed each thrift’s
    examination schedule to determine whether each thrift’s next
    full scope examination had been scheduled or started in
    accordance with its supervisory cycle. We used the Government
    Accountability Office/President’s Council on Integrity and
    Efficiency’s Financial Audit Manual as criteria for the acceptable
    number of deviations in sampling control tests to conclude on
    the results of the statistical sampling test.

Consistent with our objective, we did not assess FRB’s, FDIC’s,
OCC’s, or OTS’s overall internal control or management control
structure; obtain data from their information systems; or assess the
effectiveness of their information system controls. We conducted
our fieldwork at FDIC in Arlington, Virginia, and at FRB and OCC in
Washington, DC, from October 2011 to March 2012.




Status of the Transfer of Office of Thrift Supervision Functions   Page 13
Appendix 1
Objective, Scope, and Methodology




We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.




Status of the Transfer of Office of Thrift Supervision Functions   Page 14
Appendix 2
FRB Management Comments




Status of the Transfer of Office of Thrift Supervision Functions   Page 15
Appendix 3
OCC Management Comments




Status of the Transfer of Office of Thrift Supervision Functions   Page 16
Appendix 4
Major Contributors to This Report




Board of Governors of the Federal Reserve System OIG

Timothy Rogers, OIG Manager
Jonathan Park, Auditor and Project Lead
Eric Barndt, Auditor

Federal Deposit Insurance Corporation OIG

A. Michael Stevens, Evaluations Manager

Department of the Treasury OIG

Susan Barron, Audit Director
Amni Samson, Audit Manager
Alicia Bruce, Auditor-in-Charge
John Tomasetti, Auditor
James Lisle, Referencer




Status of the Transfer of Office of Thrift Supervision Functions   Page 17
Appendix 5
Report Distribution




Board of Governors of the Federal Reserve System

    Chairman

Federal Deposit Insurance Corporation

    Acting Chairman

Department of the Treasury

    Deputy Secretary of the Treasury
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services




Status of the Transfer of Office of Thrift Supervision Functions   Page 18
